Directions For Printing Air Logic Models


        The Logic Models presented on this page were originally formatted to be printed out on a Plotter Printer that
prints 36" long and 48" wide. If you have a Plotter Printer please download from the Plotter side of the table. (Below)

        If you do not have access to a plotter printer, the models may be printed on a regular printer. If you are going to
use a regular printer download from the Regular Printer side of the table. (Below) This will require piecing each model
together. When printing from Acrobat Reader you should make sure that the Comments Box is checked within the Print
Range box of the Acrobat Printer Setup Screen. If this box is not checked the page numbers will not print. The diagrams
below show the order in which the pages will print. This will help in attaching the sheets and putting the models together.

           Models with                                  Models with                                  Models with

               3 Pages                                    4 Pages                                      6 Pages
      Page 1             Page 2                Page 1                 Page 3                Page 1               Page 4
                         Page 3                Page 2                 Page 4                Page 2               Page 5
                                                                                            Page 3               Page 6




                                                          Model                                         Regular Printer
     Plotter Printer
Plotter1.1.1.pdf - 19KB Subobjective 1.1.1: Attain MAAQS for Ozone                                Regular1.1.1.pdf - 43KB
Plotter1.1.2.pdf - 22KB Subobjective 1.1.2: NAAQS for Particulate Matter                          Regular1.1.2.pdf - 39KB
Plotter1.1.3.pdf - 18KB Subobjective 1.1.3: Improve Visibility                                    Regular1.1.3.pdf - 32KB
Plotter1.1.4.pdf - 17KB Subobjective 1.1.4: Attain Carbon Monoxide NAAQS                          Regular1.1.4.pdf - 38KB
Plotter1.1.5.pdf - 18KB Subobjective 1.1.5: Attain Sulfur Dioxide NAAQS                           Regular1.1.5.pdf - 40KB
Plotter1.1.6.pdf - 17KB Subobjective 1.1.6: Maintain Nitrogen Dioxide NAAQS                       Regular1.1.6.pdf - 39KB
Plotter1.1.7.pdf - 16KB Subobjective 1.1.7: Attain Lead NAAQS                                     Regular1.1.7.pdf - 34KB
Plotter1.1.8(a).pdf -     Subobjective 1.1.8(a): Conduct NAAQS-Related Research                   Regular1.1.8(a).pdf -
12KB                      (Tropospheric Ozone Component)                                          23KB
Plotter1.1.8(b).pdf -     Subobjective 1.1.8(b): Conduct NAAQS-Related Research (Particulate Regular1.1.8(b).pdf -
14KB                      Matter Health Risk Model)                                          31KB
Plotter1.2.1.pdf - 10KB Subobjective 1.2.1: Conduct Air Toxics Research                           Regular1.2.1.pdf - 22KB
Plotter1.2.2.pdf - 16KB Subobjective 1.2.2: Characterize Air Toxics                               Regular1.2.2.pdf - 37KB
Plotter1.2.3.pdf - 17KB Subobjective 1.2.3: Reduce Cancer and Non-Cancer Risks from Air           Regular1.2.3.pdf - 37KB
                        Toxics
Plotter1.3.1.pdf - 16KB Subobjective 1.3.1: Reduce Acid Rain Precursors                           Regular1.3.1.pdf - 33KB
